TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Mortgage Interest Data Could Be Used to
                 Pursue More Nonfilers and Underreporters



                                       August 6, 2009

                           Reference Number: 2009-40-112




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                August 6, 2009


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Mortgage Interest Data Could Be Used to Pursue
                                 More Nonfilers and Underreporters (Audit # 200840025)

 This report presents the results of our review to determine how effectively the Internal Revenue
 Service (IRS) uses Mortgage Interest Statements (Form 1098) to identify unreported income.
 The review was part of our Fiscal Year 2009 Annual Audit Plan under the major management
 challenge of Tax Compliance Initiatives.

 Impact on the Taxpayer
 Individuals who fail to file required returns and/or underreport their income can create unfair
 burdens on honest taxpayers and diminish the public’s respect for the tax system. We recognize
 that, given the current state of the economy, many individuals are struggling to meet their
 mortgages and other financial obligations. Nevertheless, a large number of individuals are
 paying a significant amount of mortgage interest and either are not filing tax returns or are filing
 tax returns reporting income that is not sufficient to cover their mortgage obligations and basic
 living expenses. The considerable difference between income and expenditures on these returns
 raises serious questions about whether additional income should have been reported.

 Synopsis
 To its credit, the IRS recognizes the potential benefits of incorporating Forms 1098 into its
 compliance efforts and is using these documents in its Return Delinquency Program. 1 While this
 Program is experiencing success in identifying potential nonfilers, our samples of Forms 1098

 1
     See Appendix VI for a glossary of terms.
                               Mortgage Interest Data Could Be Used
                            to Pursue More Nonfilers and Underreporters



It is important to note that we do not know if the potential nonfilers identified in our review
were, in fact, required to file tax returns. Nor do we know, without an IRS examination, if the
potential underreporters owe additional taxes, penalties, and interest. However, Examination
function officials reviewed our results and agreed with the conclusions. In addition, an outside
statistician confirmed the accuracy and validity of our sampling methodologies as well as our
projections.

Recommendation
Given the potential compliance implications and revenue at stake, we recommended that the
Director, Examination, Small Business/Self-Employed Division, explore the feasibility of
making greater use of mortgage interest data to pursue additional nonfilers and underreporters
for audit.

Response
IRS management agreed with our recommendation and will expand an existing Area-wide
Compliance Initiative Project on the mortgage interest deduction to a Nationwide Compliance
Initiative Project. IRS management also indicated that the Small Business/Self-Employed
Division will form a task team to study the existing processes for identifying nonfiler workload
to ensure that mortgage interest is appropriately considered in selecting nonfiler cases for
delivery to examiners. Management’s complete response to the draft report is included as
Appendix VII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations), at (202) 622-8510.




                                                                                                   3
                                         Mortgage Interest Data Could Be Used
                                      to Pursue More Nonfilers and Underreporters




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          High Mortgage Interest Payments May Be Useful to Pursue
          Potential Nonfilers and Underreporters ........................................................Page 3
                    Recommendation 1:..........................................................Page 6


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 9
          Appendix III – Report Distribution List .......................................................Page 10
          Appendix IV – Outcome Measure ................................................................Page 11
          Appendix V – Example of Computing a Nonfiler Assessment ....................Page 14
          Appendix VI – Glossary of Terms................................................................Page 15
          Appendix VII – Management’s Response to the Draft Report.....................Page 17
         Mortgage Interest Data Could Be Used
      to Pursue More Nonfilers and Underreporters




            Abbreviations

IRS   Internal Revenue Service
TY    Tax Year
                                    Mortgage Interest Data Could Be Used
                                 to Pursue More Nonfilers and Underreporters




                                             Background

At the end of each tax year, Federal law requires financial institutions to provide the Internal
Revenue Service (IRS) with Mortgage Interest Statements (Form 1098) detailing the amount of
interest received from the mortgages they hold. Besides identifying the amount of mortgage
interest received, the law requires financial institutions to identify the names and taxpayer
identification numbers of the individual borrowers on the Form 1098 and provide a copy of the
document to the borrower responsible for paying the interest. Individuals, in turn, use the
documents to report their mortgage interest payments on their tax returns, including the interest
paid for mortgages on their primary residences, vacation homes, or commercial properties.
The role and benefits of third-party information
reporting, such as Forms 1098, are central to the success
                                                                  The role and benefits of
of our nation’s tax system because they help assure               third-party information
taxpayers accurately report certain deductions and            reporting, such as Forms 1098,
income. 1 Because information reporting generally is             are central to the success
required to take place shortly after the end of the             of our nation’s tax system.
calendar year, it provides a reliable information source
taxpayers can use in preparing their annual tax returns.
This reduces the likelihood that taxpayers may inadvertently neglect to include items such as the
mortgage interest paid on a vacation home or the interest income from a small savings account.
Besides assisting taxpayers with preparing their annual tax returns, information reporting is a key
component in IRS compliance programs that are designed to detect and pursue noncompliant
taxpayers who underreport income, overstate deductions, or do not file tax returns. Individuals
who fail to file required returns and/or underreport their income can create unfair burdens on
honest taxpayers and diminish the public’s respect for the tax system. In the Information
Reporting Program, IRS computers match the items reflected on the information documents
submitted by third parties to the related items on the filed tax returns of those who received the
documents. If the match shows a discrepancy between income reported or deductions claimed, a
potential underreporter 2 case may be developed so the IRS can determine whether an audit is
warranted to resolve these potential issues. For a match that shows no corresponding tax return,
a potential nonfiler case could be initiated.


1
  There are many different types of information returns used by third parties to report income earned by taxpayers.
For example, income earned from interest is reported on Interest Income (Form 1099-INT), while income earned
from dividends is reported on Dividends and Distributions (Form 1099-DIV). Income from wages is reported on
Wage and Tax Statement (Form W-2).
2
  See Appendix VI for a glossary of terms.
                                                                                                             Page 1
                                      Mortgage Interest Data Could Be Used
                                   to Pursue More Nonfilers and Underreporters



As a result of this matching process, the IRS annually contacts about 3 million taxpayers
regarding potential discrepancies in their tax information. Another 2 million taxpayers are
contacted to resolve potential nonfiler situations. 3 According to Fiscal Year 2008 IRS statistics,
these contacts resulted in tax assessments of about $6 billion against taxpayers who had filed
their tax returns but underreported their income. In addition, the IRS reported making another
$10 billion in tax, penalty, and interest assessments against taxpayers who had not filed their tax
returns.
This review was performed in the Small Business/Self-Employed Division and the Campus
Compliance Services function in New Carrollton, Maryland, during the period January 2008
through April 2009. Except for auditing IRS databases to validate the accuracy and reliability of
the information and evaluating the adequacy of IRS internal controls over Forms 1098, this audit
was conducted in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




3
    Average number of contacts for Fiscal Years 2004–2008 as reported in the IRS Data Book for each fiscal year.
                                                                                                            Page 2
                                     Mortgage Interest Data Could Be Used
                                  to Pursue More Nonfilers and Underreporters




                                       Results of Review

High Mortgage Interest Payments May Be Useful to Pursue Potential
Nonfilers and Underreporters
Among the widely reported factors contributing to the high default rate in the home mortgage
industry are individuals who may have assumed mortgages requiring payments that exceeded
their ability to pay. We recognize that, given the current state of the economy, many individuals
are struggling to meet their mortgages and other financial obligations. Nevertheless, a large
number of individuals are paying a significant amount of mortgage interest and either are not
filing tax returns or are filing tax returns indicating their income is not sufficient to cover their
mortgage obligations and basic living expenses. The considerable difference between
expenditures and income raises very serious questions about whether these taxpayers have
additional sources of income that should have been reported on their tax returns.

The IRS may be able to enhance its efforts to address taxpayers who are making
high mortgage interest payments, but are not filing tax returns
To its credit, the IRS recognizes the potential benefits of incorporating Forms 1098 into its
compliance efforts and is using the documents in its Collection function to bring nonfilers into
compliance. Under the Collection function Return Delinquency Program, nonfilers who meet
specific income and mortgage interest criteria are being identified and sent notices requesting
that they file their tax returns or provide explanations as to why they are not required to file.
Taxpayers who are required to file, but have not done so after receiving these notices, may be
sent to the Automated Collection System and/or the Collection Field function for further contact.
If a taxpayer still refuses to file and the case meets the high income referral criteria, the
Collection function may refer the taxpayer to the Examination function to have a “substitute” tax
return prepared for them.
IRS statistics for Tax Years (TY) 2004 and 2005 combined show that Forms 1098 have been
used as the basis to open cases and issue contact letters to 227,019 potential nonfilers soliciting
that they file their tax returns or explain why they do not need to file. Although most
(54 percent) of the potential nonfilers have yet to respond to the contact letters, statistics
provided to us by the IRS indicate 69,693 delinquent returns have been received and processed.
The tax assessed on 28,026 TY 2005 returns filed after nonfilers had received a delinquency
notice from the IRS because of mortgage interest conditions totaled $276 million. 4 While the
Return Delinquency Program is experiencing success in identifying potential nonfilers, our

4
    Tax assessed on these returns processed by November 13, 2008.
                                                                                              Page 3
                                   Mortgage Interest Data Could Be Used
                                to Pursue More Nonfilers and Underreporters



samples of Forms 1098 show the documents may also provide good audit leads for the IRS
Examination function. These leads could be used with other sources of information to pursue
additional potential nonfilers as well as underreporters who might otherwise not be pursued due
to resource constraints.
To illustrate, we evaluated 2 statistically valid samples of 100 individuals with combined
Forms 1098 totaling $20,000 or more of mortgage interest 5 that were filed with the IRS for
TY 2005. For the first sample, we matched the taxpayer identification numbers on Forms 1098
meeting our criteria to accounts in the IRS Individual Return Transaction File and found
219,593 individuals without a corresponding tax return. From the 219,593 potential nonfilers,
we randomly selected 100 for review and identified 21 individuals who appeared to have filing
requirements for TY 2005, but had yet to be contacted by the IRS.
To determine the amount of taxes the 21 potential nonfilers may owe, we first followed the cash
transaction analysis process used by the IRS Examination function to obtain an estimate of each
individual’s income. The cash transaction analysis process is an auditing technique that uses
personal living expense estimates published by the Bureau of Labor Statistics in comparing a
taxpayer’s expenditures to their income sources. If a taxpayer’s expenditures exceed their
income and the source to pay for such expenditures cannot be explained, the excess represents
potential unreported income.
Next, we followed the IRS procedures for preparing proposed assessments in situations where it
estimates the taxes owed and prepares a “substitute” return. We found that the 21 individuals
may owe as much as $177,715 in delinquent taxes and $107,209 in penalties and interest. 6 When
projected to the population of 219,593 potential nonfilers, our results indicate 46,115 potential
nonfilers may collectively owe as much as $625 million in delinquent taxes, penalties, and
interest for TY 2005, but have not been contacted by the IRS Return Delinquency Program. 7
The projection is based on a 95 percent confidence level. We expect the number of potential
nonfilers to fall between 28,500 and 63,729 with amounts owed ranging between $351,894,360
and $899,456,350.

Significant underreporting may exist on tax returns filed with high mortgage
interest payments
In the second sample, we matched the taxpayer identification numbers on Forms 1098 meeting
our criteria to the IRS Individual Return Transaction File and identified 245,535 individuals who
reported less adjusted gross income on the returns they filed for TY 2005 than the amount of
mortgage interest reflected on their Forms 1098. After randomly selecting 100 of the


5
  We chose individuals with aggregate Forms 1098 reporting $20,000 or more of mortgage interest because it would
enable us to focus our efforts on those who were more likely to have higher incomes.
6
  Appendix V provides a detailed example of how we computed the assessments for the 21 potential nonfilers.
7
  See Appendix IV for additional details.
                                                                                                        Page 4
                               Mortgage Interest Data Could Be Used
                            to Pursue More Nonfilers and Underreporters



revenue at stake, we believe the next step is for the IRS to explore the potential opportunities that
may exist for making greater use of mortgage interest data in its compliance efforts.
The IRS has a long history of using special projects to explore and evaluate new approaches to
address potential areas of noncompliance. For example, some suspected areas of noncompliance
within various taxpayer segments are currently evaluated and managed through various
Compliance Initiative Projects within the IRS’ operating divisions. With years of experience to
draw upon, the IRS staff involved in these and other projects are better positioned than us to
implement cost effective approaches to broadening the use of Forms 1098 in IRS compliance
efforts.

Recommendation
Recommendation 1: The Director, Examination, Small Business/Self-Employed Division,
should explore the feasibility of making greater use of mortgage interest data to pursue additional
nonfilers and underreporters for audit.
       Management’s Response: IRS management agreed with our recommendation and
       will expand an existing Area-wide Compliance Initiative Project on the mortgage interest
       deduction to a Nationwide Compliance Initiative Project. IRS management will also
       evaluate the results and modify the Compliance Initiative Project, as appropriate, based
       upon the results. Further, they will form a task team to study the existing processes for
       identifying nonfiler workload to ensure that mortgage interest is appropriately considered
       in selecting nonfiler cases for delivery to examiners.




                                                                                              Page 6
                                      Mortgage Interest Data Could Be Used
                                   to Pursue More Nonfilers and Underreporters



                                                                                       Appendix I

            Detailed Objective, Scope, and Methodology

The objective of this review was to determine how effectively the IRS uses Mortgage Interest
Statements (Form 1098) to identify unreported income. Unless otherwise noted, our limited tests
of the reliability of data obtained from various IRS systems did not identify any material errors.
We tested the reliability of the data by scanning the data received for blank, incomplete, illogical,
or improper data. In addition, we traced a judgmental sample for each data set to the source IRS
files to ensure accuracy. We did not perform any testing of internal controls over the systems
that were the sources of our data. To accomplish this objective, we:
I.         Determined whether the IRS effectively uses mortgage interest information provided by
           third parties to identify individuals who are not reporting all of their income for tax
           purposes.
           A. Identified what processes are in place where the IRS uses mortgage interest data to
              identify unreported income.
           B. Analyzed information returns and individuals’ tax records on IRS systems to
              determine whether there is a potential for identifying unreported income by:
               1. Identifying whether the taxpayers who had paid mortgage interest had filed tax
                  returns and reported the mortgage interest as a deduction.
               2. Profiling and comparing the mortgage interest data on the Information Returns
                  Master File 1 against income data on the Individual Return Transaction File to
                  identify where there is more potential for underreporting of income.
                    a) We chose individuals with combined Forms 1098 reporting $20,000 or more
                       of mortgage interest because it would enable us to focus on those who were
                       more likely to have tax return filing requirements for TY 2005. Individuals
                       with income over $18,400 would have to file a tax return regardless of filing
                       status or age and, if they paid at least $20,000 in mortgage interest, it is
                       reasonable to assume they more than likely made at least $18,400 in income.
                    b) We eliminated taxpayers who had filed Supplemental Income and Loss
                       (Schedule E) with their tax returns to focus on mortgage interest on personal
                       residences.



1
    See Appendix VI for a glossary of terms.
                                                                                               Page 7
                                   Mortgage Interest Data Could Be Used
                                to Pursue More Nonfilers and Underreporters



             3. Using the available income, mortgage interest, and other expense data to identify
                the amount of income reasonably needed to be able to afford the mortgage interest
                payments.
             4. Selecting a statistically valid random sample of 100 taxpayers from a population
                of 245,535 taxpayers who had filed tax returns in TY 2005 with $20,000 or more
                in third-party reported mortgage interest and with adjusted gross income less than
                mortgage interest paid, and did not file a Schedule E with their tax return.
                Precision, as computed based on our sample analysis using a 95 percent
                confidence level, is 9.51 percent.
             5. Selecting a statistically valid random sample of 100 taxpayers from a population
                of 219,593 nonfiling taxpayers with $20,000 or more in third-party reported
                mortgage interest in TY 2005. Precision, as computed based on our sample
                analysis using a 95 percent confidence level, is 8.02 percent.
             6. Analyzing the filing and payment compliance history for both samples of
                taxpayers to identify (a) any tendencies towards noncompliance and unreported
                income and (b) whether the IRS has taken any enforcement actions on these
                taxpayers for TY 2005.
             7. Using variable sampling techniques to quantify the potential
                unreported/underreported income, taxes, penalties and interest for the cases in
                both samples with a 95 percent confidence level.2
             8. Confirming the accuracy and validity of our sampling methodologies and
                projections with an outside statistician.




2
 For the filer sample, the average adjustment was $3,262.51 and the standard deviation was $5,243.84. For the
nonfiler sample, the average adjustment was $2,849.25 and the standard deviation was $6,362.61.
                                                                                                          Page 8
                             Mortgage Interest Data Could Be Used
                          to Pursue More Nonfilers and Underreporters



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Bryce Kisler, Audit Manager
Alan Lund, Acting Audit Manager
Craig Pelletier, Senior Auditor
Stanley Pinkston, Senior Auditor
Bob Carpenter, Information Technology Specialist




                                                                                      Page 9
                             Mortgage Interest Data Could Be Used
                          to Pursue More Nonfilers and Underreporters



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Examination, Small Business/Self-Employed Division SE:S:E
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                    Page 10
                                    Mortgage Interest Data Could Be Used
                                 to Pursue More Nonfilers and Underreporters



                                                                                                Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Increased Revenue – Potential; 136,963 taxpayers owe $1.4 billion in additional taxes,
    penalties, and interest (see page 3). 1 This outcome measure does not include amounts (cost)
    that could offset this benefit due to reallocating resources from other IRS investigations.

Methodology Used to Measure the Reported Benefit:
Outcome calculation methodology for the nonfiler 2 exception cases:
    •   We selected a statistically valid sample of 100 taxpayers from a population of
        219,593 potential nonfilers that had third-party reported mortgage interest of $20,000 or
        more in TY 2005.
    •   We identified 21 individuals who appear to have filing requirements for TY 2005, but
        had yet to be contacted by the IRS.
    •   Based on our sample error rate (21/100), we calculated the number of potential nonfilers
        in the total nonfiler population that appear to have filing requirements for TY 2005 and
        had yet to be contacted by the IRS (the projected nonfiler exception cases).
        [219,593 x (21/100) = 46,115] 3
    •   To estimate the potential amount of delinquent taxes, penalties, and interest these
        21 potential nonfilers may owe, we used the Examination function’s cash transaction
        analysis process to estimate the annual expenses and minimum income needed for each
        taxpayer. Based on this analysis, we estimated that these 21 nonfilers in our sample may
        owe $177,715 in delinquent taxes and $107,209 in penalties and interest.


1
  This number is rounded. The actual figure is $1,426,735,748, which is made up of $625,675,355 for nonfilers and
$801,060,393 for underreporters. We are 95 percent confident that the estimated total amount owed is between
$1,054,428,423 and $1,799,043,073.
2
  See Appendix VI for a glossary of terms.
3
  We are 95 percent confident that there are between 28,500 and 63,729 (8.02 percent precision) potential nonfilers
that appear to have a filing requirement and have not been contacted by the IRS.
                                                                                                          Page 11
                                      Mortgage Interest Data Could Be Used
                                   to Pursue More Nonfilers and Underreporters



        Specific computations:
                Additional Taxes Due ...............................................................$177,715
                      o Includes Self-Employment Tax ......$144,637
                Penalties Applied ........................................................................$71,666
                      o Failure to File....................................$39,986
                      o Failure to Pay ....................................$26,657
                      o Estimated Tax .....................................$5,023
                Interest.........................................................................................$35,543
                Total Additional Taxes, Penalties, and Interest Due.................$284,925 4
    •   We calculated the average additional taxes, penalties, and interest for all 100 nonfilers in
        our sample. [$284,925/100 = $2,849.25]
    •   We then multiplied the number of nonfilers in the total nonfiler population by the average
        amount due from each sample case to get the total amount of additional delinquent taxes,
        penalties, and interest owed by the total nonfiler population for TY 2005.
        [219,593 x $2,849.25 = $625,675,355] 5
Outcome calculation methodology for the underreporter exception cases:
    •   We selected a random sample of 100 taxpayers from a population of 245,535 filers that
        had third-party reported mortgage interest of $20,000 or more and claimed on their
        TY 2005 tax returns adjusted gross income amounts less than their reported mortgage
        interest. 6
    •   We identified 37 filers that each claimed income insufficient to cover their mortgage
        obligations and basic living expenses (the projected underreporter exception cases).
    •   Based on our sample error rate (37/100), we calculated the number of filers in the total
        filer population that would have claimed income that was insufficient to cover their
        mortgage obligations and basic living expenses. [245,535 x (37/100) = 90,848] 7


4
  Total adjusted due to rounding to whole dollars.
5
  Total adjusted due to rounding to whole dollars. Using the computed standard deviation of $6,362.61 for our
sample, we are 95 percent confident that the total amount owed by the projected nonfilers (exception cases) will be
between $351,894,360 and $899,456,350.
6
  Our data extract contained an error on 1 of 100 data segments processed (Social Security Numbers ending in “08”).
Our population of 245,535 is the total records in the 99 valid data segments.
7
  We are 95 percent confident that the number of individuals with insufficient funds to cover their mortgage
obligations and basic living expenses will be between 67,501 and 114,195 (9.51 percent precision).
                                                                                                                            Page 12
                                      Mortgage Interest Data Could Be Used
                                   to Pursue More Nonfilers and Underreporters



    •   To estimate the potential amount of additional taxes, penalties, and interest these 37 filers
        may owe, we used the Examination function’s cash transaction analysis process to
        estimate the annual expenses and minimum income needed for each taxpayer. Based on
        this analysis, we estimated that the 37 filers in our sample may owe $265,018 in
        additional taxes and $61,233 in penalties and interest.
        Specific computations:
                Additional Taxes Due ...............................................................$265,018
                      o Includes Self-Employment Tax ......$164,234
                Penalties Applied ..........................................................................$8,257
                      o Failure to File......................................$8,257
                Interest.........................................................................................$52,976
                Total Additional Taxes, Penalties, and Interest Due.................$326,251
    •   We calculated the average additional taxes, penalties, and interest for all
        100 underreporters in our sample. [$326,251/100 = $3,262.51]
    •   We then multiplied the number of underreporters in the total underreporter population by
        the average amount due from each sample case to get the total amount of additional
        delinquent taxes, penalties, and interest owed by the total underreporter population for
        TY 2005. [245,535 x $3,262.51 = $801,060,393] 8




8
 Using the computed standard deviation of $5,243.84 for our sample, we are 95 percent confident that the total
amount owed by the projected underreporters (exception cases) will be between $548,757,358 and $1,053,363,428.
                                                                                                                            Page 13
                                    Mortgage Interest Data Could Be Used
                                 to Pursue More Nonfilers and Underreporters



                                                                                                 Appendix V

        Example of Computing a Nonfiler Assessment

Note: This is a hypothetical example of a potential nonfiler 1 that we are using to present
additional details on how we computed the assessments for the 21 potential nonfilers discussed
in the report.
In TY 2005, an individual who did not file a tax return had third-party reported wages of $15,000
and a bank reported that the individual paid $25,000 in mortgage interest. We used Bureau of
Labor Statistics estimates of personal living expenses for housing, utilities, transportation, health
costs, and food costs to determine, based on household size, 2 what additional funds would be
necessary to meet all expenditures.
We then used this information to compute the taxable income, taxes due, and self-employment
taxes due. Since there is no record of additional wages reported for the individual, we assumed
that additional income computed would be subject to self-employment tax. So, for this
individual, we would have added the $10,000 additional funds needed to pay the mortgage
interest and $18,000 to have enough money to afford the other personal living expenses.
Assuming the individual is single, his or her taxable income would be $12,822, income tax
would be $1,559, and self-employment tax would be $3,956.
Since the 2005 tax return was not filed as of October 2008 and the individual owes taxes, he or
she would also be assessed a $1,241 failure to file penalty, an $827 failure to pay penalty, and a
$221 estimated tax penalty. In addition, he or she would owe $1,103 of interest on the taxes, for
a total balance due of $8,907.




1
 See Appendix VI for a glossary of terms.
2
 We used information from previously filed tax returns to determine the size of household if the individuals were
nonfilers in TY 2005, but they had filed previously. Otherwise, we considered them to be single.
                                                                                                          Page 14
                               Mortgage Interest Data Could Be Used
                            to Pursue More Nonfilers and Underreporters



                                                                                 Appendix VI

                                Glossary of Terms

Adjusted Gross Income – The income reported on individual tax returns after certain allowable
adjustments are made from total income, such as Individual Retirement Arrangement
contributions and moving expenses. It is used as a basis for various calculations, including
determining the limitations on itemized deductions.
Automated Collection System – A telephone contact system through which telephone assistors
collect unpaid taxes and secure delinquent tax returns from taxpayers who have not complied
with previous notices.
Bureau of Labor Statistics – A Federal Government agency that researches and publishes a
range of data, from inflation and consumer spending to employment, productivity and wages,
and other economic measures.
Cash Transaction Analysis – An auditing technique in which a taxpayer’s expenditures are
compared to his or her income sources. Under this technique, if a taxpayer’s expenditures
exceed reported income and the source to pay for such expenditures cannot be explained, the
excess represents potential unreported income.
Collection Field Function – A unit in the Small Business/Self-Employed Division field offices
where IRS personnel contact taxpayers to collect delinquent accounts or secure unfiled tax
returns.
Collection Function – The IRS operation that collects delinquent accounts or secures unfiled tax
returns.
Compliance Initiative Project – An IRS activity that identifies and addresses areas of
noncompliance within specified taxpayer groups.
Examination Function – The IRS operation that conducts audits of tax returns of individuals,
partnerships, corporations, and other entities.
Individual Return Transaction File – A database the IRS maintains that contains information
on the individual tax returns it receives.
Information Returns Master File – An IRS database containing all information returns
transcribed or electronically received by the IRS. It contains data about both the payer and the
payee from various forms, including Mortgage Interest Statements (Form 1098) and Wage and
Tax Statements (Form W-2), among others.



                                                                                          Page 15
                                Mortgage Interest Data Could Be Used
                             to Pursue More Nonfilers and Underreporters



Master File – The IRS database that maintains transactions or records of individual and business
tax accounts.
Nonfiler – A taxpayer who has not filed required tax returns.
Return Delinquency Program – An IRS program that identifies and addresses taxpayers who
have not filed a tax return by the return due date.
Supplemental Income and Loss (Schedule E) – An attachment to a tax return that is used in
reporting the income and losses from rental real estate, royalties, partnerships, and other entities.
Underreporter – A taxpayer who fails to report all of his or her income for income tax reporting
purposes.




                                                                                             Page 16
            Mortgage Interest Data Could Be Used
         to Pursue More Nonfilers and Underreporters



                                                Appendix VII

Management’s Response to the Draft Report




                                                       Page 17
   Mortgage Interest Data Could Be Used
to Pursue More Nonfilers and Underreporters




                                              Page 18
